items for the months ending September 30, 2004, December 31, 2004, and
March 31, 2005 for the 18 accounts that represented 99 percent of the dollar value of
activity in all 35 accounts. These 18 accounts included:

    •   6 with the Bank of America;
    •   3 with Riggs Bank (now the Pittsburgh National Corporation);
    •   3 with the Hong Kong and Shanghai Banking Corporation;
    •   2 with Manufacturers and Traders Trust Company;
    •   2 with Fleet;
    •   1 with Citibank Corporation; and
    •   1 with J.P. Morgan/Chase.

To determine the nature of the reconciling items, we sampled $12.4 million or
72 percent of the $17.3 million in reconciling items that were over 30 days old as of
December 31, 2004. We also reviewed the Smithsonian’s plans for changing its banking
arrangements to determine how they would affect the bank reconciliation process and to
assess whether additional process changes were needed to facilitate the transition.

RESULTS IN BRIEF

Since the beginning of fiscal year (FY) 2005, OC has aggressively reduced the backlog of
reconciling items in the 18 bank accounts reviewed. For example, between
September 30, 2004 and March 31, 2005, OC resolved $7.2 million of reconciling items
over 90 days old. This progress is impressive given the high volume of year-end
transactions and work interruptions from year-end closing activities and the financial
statement audit.

Despite these efforts, as of March 31, 2005, the Institution had 746 items valued at
approximately $7 million that were unresolved for over 30 days. This dollar amount
represents 3.9 percent of the $181.7 million in deposits and disbursements processed
through the Institution’s 18 bank accounts in March 2005.

Data entry errors by OC staff and late recording of health benefits transactions
significantly contributed to the dollar amount of reconciling items. OC lacked a
standardized and properly supervised process for resolving items. Staff in OC’s Financial
Analysis Division indicated that they attempted to informally resolve reconciling items
with staff in other OC divisions without working through those individuals’ supervisors,
which may have contributed to delays in reducing the backlog of items. OC also lacked
aged listings of reconciling items that would enable OC division managers to better track
the age of items and their resolution.




                                            2
Failure to resolve reconciling items timely increases the risk that errors or unrecorded
transactions may not be detected and corrected promptly. This failure also decreases
control over cash and increases the risk that theft or loss of funds may not be promptly
detected and corrected. It also hinders OC’s ability to produce accurate monthly and
quarterly financial reports and may prevent units from having access to funds timely. For
example, we found that the Hirshhorn Museum was unable to spend approximately
$130,000 for over 2 years because the funds were not recorded timely. This deposit
occurred shortly after implementation of the new financial system, and unit staff were not
trained on how to run PeopleSoft reports until approximately 9 months after the deposit
was made.

Finally, failure to resolve reconciling items timely could result in idle cash remaining in
certain small bank accounts that could be invested in overnight or short-term securities.
We identified $328,186 that had accumulated over the last 7 months in one of the
Institution’s smaller bank accounts before it was invested.

Efforts to consolidate bank accounts and automate the remittance process should
significantly reduce data entry errors and the volume of reconciling items. However,
because the new banking relationship may not be fully implemented for 15 to 24 months,
OC will need to take steps in the interim to minimize both data entry errors and
reconciling items. Since the majority of data entry errors were within OC, we recommend
that the Comptroller ensure that data entry activities are reviewed to make certain that
transactions are accurately entered into PeopleSoft. OC should also instruct the units to
review cash activity recorded by OC for accuracy and seek unit notification of incoming
wire transfers. To address the late recording of health benefits activity and ensure that
premium deposits and benefits payments are accurately recorded, we recommend the
Director of the Office of Human Resources (OHR) assume responsibility for preparing
input vouchers for health benefits transactions.

To improve the process for resolving reconciling items, we also recommend that the
Comptroller implement a standardized process for resolving reconciling items, ensure the
resolution process is properly supervised, and make use of aged listings of reconciling
items to track the age of items and their resolution with the units. Further, we
recommend that the Chief Financial Officer remind units of the importance of resolving
reconciling items in a timely manner.

According to the Comptroller, when the new banking arrangement is implemented,
responsibility for most of the data entry of deposits will most likely shift from OC to the
units. In addition, it is anticipated that certain units will have the ability to scan their
remittances for entry into the Institution’s financial system. Because the data entry
process will be dispersed among the various units within the Institution and not
controlled centrally by OC, OC will need to exercise greater oversight of the process to
ensure that the information recorded in the general ledger is accurate and complete.




                                              3
RESULTS OF AUDIT

Significant Progress Made in Eliminating Backlog
Of Reconciling Items

The Office of the Comptroller (OC) is responsible for reconciling the bank accounts of
the Institution, and the individual units of the Institution (museums, offices, and research
facilities) are responsible for submitting the appropriate input documents that provide
the accounting information for most bank deposits. The units submit a Cash Receipts
Voucher (CRV), Transmittal Form for Gifts & Promise to Give (Form 3011), or an
Incoming Wire Transfer Advice to OC for entry of membership dues, miscellaneous sales
revenue, or donations, into the PeopleSoft financial management system. For the
majority of the accounts, OC manually reconciles the bank statements by comparing
them to transaction details on the PeopleSoft general ledger reports, and works with the
units to resolve reconciling items.

Since the beginning of FY 2005, OC has aggressively reduced the backlog of reconciling
items in the 18 bank accounts reviewed. As shown in Figure 1 below, between
September 30, 2004 and March 31, 2005, OC resolved $7.2 million of reconciling items
over 90 days old. Of this amount, $5.6 million was associated with inter-bank payroll
transfers for the Smithsonian Tropical Research Institute (STRI). OC’s progress is
impressive given the high volume of year-end transactions and the demands within OC to
address year-end closing activities and the financial statement audit.

                                        Figure 1
                              Value of Reconciling Items
                    Over 90 Days Old in 18 Bank Accounts Reviewed
                                    ($ in millions)
              $10

                               $8.7              $8.6
               $8



               $6



               $4



               $2
                                                                     $1.5


               $0
                         Sept 2004           Dec 2004           Mar 2005




                                             4
Despite significant progress, as of March 31, 2005, the Institution had 746 items valued at
approximately $7 million that were unresolved for over 30 days. This dollar amount
represents 3.9 percent of the $181.7 million in deposits and disbursements processed
through the 18 bank accounts in March 2005. Of the 746 items, 285 were a carryover
from prior months because OC was still playing “catch up” in eliminating its backlog of
items. OC’s progress in resolving these items was also hindered by resource constraints.
For example, the position of Cash Management Officer had been vacant since
January 2005, and the office lacked sufficient analysts to research and resolve reconciling
items. A Cash Management Officer was subsequently hired in September 2005.
According to the Comptroller, additional analyst positions will be added to OC in
FY 2006. The Comptroller also stated that, since many reconciling items are generated by
individual unit activity, greater cooperation from individual unit staff is necessary to
accomplish a more timely resolution of reconciling items.

We also noted that OC lacked a formalized process for resolving items to ensure that
reconciling items were elevated to OC management. Staff in OC’s Financial Analysis
Division indicated that they tried to informally resolve reconciling items with staff in
other OC divisions without working through those individuals’ supervisors, which may
have contributed to delays in reducing the backlog of items. OC also lacked aged listings
of reconciling items that would enable OC to better track the age of items and their
resolution with the units.

Prompt resolution of reconciling items is a key internal control over cash to ensure that
errors or unrecorded transactions are detected and corrected promptly. Doing so can
prevent loss. For example, because Smithsonian Business Ventures promptly reconciled
its bank accounts, in June 2005, it was able to identify $107,000 in counterfeit checks and
notify its banks to prevent loss to the Institution. Timely reconciliations also ensure that
units have immediate access to funds designated for their operations and that cash does
not sit idle when it can be invested in overnight or short-term securities. For example, we
found that the Hirshhorn Museum was unable to spend approximately $130,000 for over
2 years because the funds were not promptly posted to the museum’s revenue account.
This deposit occurred shortly after the implementation of the new financial system, and
staff were not trained on how to run PeopleSoft reports until approximately 9 months
after the deposit was made. We also identified $328,186 that had accumulated over the
last 7 months in one of the Institution’s smaller bank accounts before it was invested.

Finally, monthly reconciliations of bank accounts are critical to producing accurate
monthly and quarterly financial reports needed to support day-to-day management
decisions and drive results in key areas of operation.




                                             5
Reconciling Items Were Caused by Data Entry Errors
and Recording Delays

We sampled $12.4 million or 72 percent of the $17.3 million in reconciling items that
were over 30 days old as of December 31, 2004 to determine the nature of these items. As
shown in Table 1, $9.4 million or 76 percent of the reconciling items sampled were caused
by data entry errors, and $3.0 million or 24 percent were caused by late recording of
transactions. We also found that $7.4 million or 60 percent of the $12.4 million in
reconciling items were related to transactions prior to July 2004 when individual general
ledger accounts were not part of the PeopleSoft financial management system.

                                                Table 1
                                  Causes of Reconciling Items Sampled
                                       (as of December 31, 2004)

                                                                                               Items Prior
                                                                                                to 7/1/04
                                                                             Total             Included in
                Data Entry Errors                                           Amount                 Total
                                                                                                            a
                 Office of the Comptroller                                  $8,472,706           $6,425,417
                 Smithsonian Tropical Research                                 939,836              858,258
                  Institute
                   Subtotal                                                 $9,412,542           $7,283,675

                Late Recording of Transactions
                  Office of Human Resources Health                           $2,242,760                       0
                    Benefits Activity
                  Incoming Wire Transfers                                        337,477                    0
                  CRV Processing                                                 172,948              129,180
                  Office of the Comptroller Transfers                            118,411
                  Unit CRV Submissions                                           108,182               13,000
                  Not Sufficient Funds (NSF) Returned
                   Checks                                                       37,070               18,926
                    Subtotal                                                $3,016,848             $161,106
                Total                                                      $12,429,390           $7,444,781
            a
                Of the $6.4 million, $5.6 million was related to inter-bank transfers dating back to October 2002
                for Smithsonian Tropical Research Institute payroll.


Data Entry Errors

The majority (90 percent) of the data entry errors were caused by OC, which relied
heavily on contract staff to enter cash deposits and payments into the PeopleSoft financial
management system. OC experienced a high turnover in contract staff, which resulted in
a lack of continuity in processing documents. Further, OC did not perform reviews of the
accounting information entered into PeopleSoft to ensure its accuracy. OC management
informed us that these reviews were not performed principally due to staff shortages (the



                                                               6
Cash Management Officer position had been vacant since January 2005) and the lack of
trained analysts to perform this review function. The Comptroller hired a Cash
Management Officer in September 2005 and stated that he plans to begin hiring analysts
in FY 2006.

A December 2004 report by PricewaterhouseCoopers, which was contracted to review
internal controls within OC, noted that OC’s overall focus was on processing transactions
rather than controlling those processes to ensure that information is being accurately
entered. The contractor also observed that a great deal of reliance is placed upon
individuals not to make errors and that there was very little higher-level review of daily
processing outputs.

In addition to the lack of review of data entered by OC, the Comptroller indicated that
the units do not always properly or timely review PeopleSoft general ledger activity
reports for their units to ensure that activity is correctly recorded by OC. This was
confirmed by staff in two units that we interviewed during our review. A more timely and
robust unit review of general ledger activity reports would provide a key check and
balance in that process.

In addition to the errors made by OC, we found that 10 percent or approximately
$940,000 of the data entry errors were caused by STRI. STRI employees had not received
adequate PeopleSoft training and were posting the totals of multiple vendor payments
instead of individual transactions to the PeopleSoft financial management system.
According to STRI management, it began to correct the problem of posting summary
entries in April 2004. The STRI bank reconciliation process has improved dramatically
since that time. In June 2005, OC provided STRI with the appropriate training on the
PeopleSoft financial management system, including the bank reconciliation process.

Late Recording of Transactions

Of the $12.4 million in reconciling items we sampled, $3 million was caused by the late
recording of transactions, most of which involved OHR health benefits activity.
Specifically, in August 2004, OHR stopped preparing input vouchers to record premium
deposits and payments associated with health benefits, causing $2.2 million in reconciling
items over 30 days old by the end of December 2004. Staff departures in OHR left the
unit without the necessary resources to prepare input vouchers to record health benefits
activity.

To ensure that these transactions were recorded, OC assumed responsibility from OHR
for recording the premium deposits and benefits payments. However, OC experienced
difficulty in obtaining the CIGNA health insurance reports needed to make the entries. In
addition to delaying the recording of health benefits transactions, the transfer of
responsibility to OC created an internal control weakness because OHR is not reviewing
activity reports on a monthly basis to ensure benefits deposits and payments are valid.




                                            7
Wire transfers also were not being promptly recorded for several reasons. The units were
not always complying with the established procedure to notify the Cash Management
Office of anticipated incoming wire transfers. In some instances, units stated that they
did not comply with this procedure because of limited staff. Units also indicated they did
not always know whether payments would be made by wire. We found that OC did not
always advise units monthly of incoming wires that needed to be recorded. Regular
monthly notifications by OC to the units would provide a key control in monitoring
unrecorded wire transfers.

In addition to late recording of health benefits and wire transfers, the Comptroller
indicated that the process for recording gifts of stocks was causing reconciling items.
When a donor donates stocks, the stocks are sent to the Institution’s broker, and the
Office of the Treasurer instructs the broker to sell the stocks. The Office of the Treasurer
then forwards information, including the amount of the proceeds and settlement date, to
the units to prepare the 3011 input forms. In some cases, the broker will sell more than
one stock at a time for different units, and therefore the total bank deposit may be split
among different units. If the units do not promptly submit 3011 forms to OC, then the
amount recorded will be less than the amount of the deposit. The Comptroller provided
examples, totaling $102,576, where the units were not sending in the 3011 forms on a
timely basis.

New Banking Arrangement Should Reduce Errors and Reconciling Items,
But Increased Oversight of Transaction Processing and Data Entry Needed

In 2004, the Smithsonian contracted with Mitchell and Titus, LLP to research products in
the banking and treasury/cash management environment, and to assess its existing
banking relationships. Their report, issued on October 15, 2004, identified several
opportunities to streamline the Institution’s banking arrangements and automate its
processes. The study recommended, among other things, that the Institution:

    •   Close multiple disbursement accounts, leaving one or two open, capable of
        tracking activity level disbursements through prefixes or suffixes that are built
        into the account number.

    •   Close most, if not all, lock boxes and implement Accounts Receivable Conversion
        technology to enable units to turn checks received into electronic transactions.
        Supporting documentation received would then be used to properly record the
        activity in the PeopleSoft financial management system.

    •   Reduce the amount of paper transactions through the use of electronic banking.




                                             8
According to the Comptroller, the Smithsonian intends to implement 16 of the
17 recommendations made by the study. Plans for the selection of a new banking
partner(s) are underway, with the selection process to be completed in the last quarter of
calendar year 2005. While it is too early to tell what the new banking arrangement will
look like, the recommendations, if implemented, should reduce the number of data entry
errors and reconciling items. For example, consolidating accounts will reduce some of the
complications related to recording and reconciling the accounts and reduce the time OC
spends on reconciliation activity. Further, implementing electronic cash receipt practices
should reduce recording times and ensure deposits are properly recorded in the
appropriate unit accounts.

While these changes should bring about tremendous improvements in the bank
reconciliation process, the units and OC will need to strengthen oversight over the
recording of cash receipts. Because the new banking relationship may not be fully
implemented for 15 to 24 months, in the interim OC will continue to record receipts and
disbursements in the PeopleSoft financial management system. Given the high number of
data entry errors we observed, OC will need to ensure that data entry activities are
properly staffed and supervised and that data entered into the general ledger is supported
by corresponding source documents.

To the extent units assume responsibility for converting checks into electronic
transactions, a timely review of deposit transactions must occur to ensure that they have
correctly recorded revenue in the general ledger. According to the Comptroller, the units
have been reluctant to perform these reviews in the past because of their unfamiliarity
with the PeopleSoft system. These reviews, as well as oversight by OC, will become even
more important under the new banking arrangement as the units assume greater
responsibility for recording revenues. OC will need to work with the units to establish an
oversight process for ensuring that revenues are accurately recorded and reviewed.

Also, although automated data entry processes may reduce reconciling items, they will not
eliminate them altogether, and OC will have to resolve any reconciling items identified.
Because an adequate process was not in place to ensure that issues were elevated to
appropriate levels, OC will need to formalize its process and to establish and use as a
monitoring tool aged listings of reconciling items.

RECOMMENDATIONS

To reduce data entry errors and delays in recording transactions until the new banking
arrangement is in place, we recommend that:

   1. The Comptroller ensure data entry of deposits and disbursements are properly
      reviewed. At a minimum, require that the staff in the Cash Management Office
      compare reports of daily general ledger postings to the original source documents.




                                            9
   2. The Comptroller remind units to notify OC of anticipated incoming wire
      transfers, when known, and notify units of incoming wire transfers that remain
      unrecorded.

   3. The Comptroller instruct the units to review cash activity recorded by OC in their
      general ledger accounts for accuracy.

   4. The Director of the Office of Human Resources assume responsibility for
      preparing input vouchers for CIGNA health benefits activity to provide the proper
      control over these transactions.

To transition data entry responsibility for deposits under the new banking arrangement
and to ensure that proper oversight is in place over the recording of transactions, we
recommend that:

   5. The Comptroller, in collaboration with the units, establish an oversight process
      for ensuring that revenues are accurately recorded and reviewed.

To improve the process for resolving reconciling items, we recommend that:

   6. The Comptroller implement a standardized process for resolving reconciling
      items, ensure the resolution process is properly supervised, and make use of aged
      listings of reconciling items to track the age of items and their resolution with the
      units. These reports should be circulated to OC Division Managers, the
      Comptroller, and unit heads.

   7. The Chief Financial Officer remind units involved with receipt and disbursement
      activities of the importance of resolving reconciling items in a timely manner.

MANAGEMENT RESPONSE

Management officials provided formal written comments to our September 16, 2005,
draft report on September 22, 2005. All offices concurred with our analyses and
recommendations. Management officials identified actions planned for each
recommendation as well as target dates for their completion. By October 31, 2005, the
Comptroller will issue a notification to all units reminding them to review cash activity
posted to their accounts on a regular basis and to notify OC of anticipated wire transfers.
In a subsequent communication, OC clarified that they will notify units of incoming wire
transfers that remain unrecorded. Additionally, by December 31, 2005, OC will
implement formal processes to provide assurances that the data entry of deposits and
disbursements are properly reviewed, revenues are accurately recorded and reviewed
under the new banking arrangement, and that the age of reconciling items is tracked and
units are informed as to their status.




                                            10
The Chief Financial Officer will notify the units of their responsibility to assist OC in the
resolution of bank reconciling items in a timely manner by October 31, 2005. In addition,
the Director of the Office of Human Resources will assume responsibility for preparing
input vouchers for CIGNA health benefits activity. OC agreed to develop a template for
use by OHR in the monthly preparation of input vouchers to record health benefits
activity by December 31, 2005. The full text of management’s comments is included in
Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s proposed actions are responsive to our recommendations and we consider
the recommendations resolved. While OC has made significant progress in reducing the
backlog of reconciling items during FY 2005, this area still needs attention. We are
pleased that a new Cash Management Officer is now on board and that OC plans to hire
additional analysts in FY 2006. Fully implementing the recommendations will go a long
way toward eliminating the backlog, as well as ensuring cash receipts and disbursements
are properly recorded and the Institution’s funds are put to better use during the
transition to a new banking partner.




                                             11
APPENDIX A. OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The objectives of this audit were to determine whether: (1) bank accounts were reconciled
completely, accurately, timely, and efficiently; and (2) policies, procedures, and internal
controls over bank reconciliations were adequate. We also identified reconciliation issues
that the Smithsonian will need to address before it transitions to a new banking partner.

SCOPE AND METHODOLOGY

To evaluate the adequacy of bank reconciliations, we reviewed all 35 trust bank account
reconciliations as of December 31, 2004. We traced the book and bank balances from the
reconciliation to the PeopleSoft general ledger reports and the bank statements for each of
the 35 accounts.

We compared the dollar value and age of reconciling items for the months ending
September 30, 2004, December 31, 2004, and March 31, 2005, for 18 bank accounts that
had a high-dollar value of activity or unusual transactions. As of December 31, 2004,
deposits into these 18 accounts totaled $85.8 million and withdrawals $90.2 million, or
approximately 99 percent of the activity in all 35 accounts. Approximately $177 million
in deposits and disbursements were processed through the 35 accounts in
December 2004. We also reviewed descriptions of the reconciling items and obtained the
supporting schedules.

To identify causes of reconciling items and the reasons for delays in resolving them, we
examined 591 large or unusual reconciling items totaling approximately $12.4 million or
72 percent of the $17.3 million in reconciling items over 30 days old for the 18 accounts as
of December 31, 2004. We judgmentally selected large or unusual items for testing from
the total of reconciling items over 30 days old as of December 31, 2004. We researched
transaction documentation and interviewed Office of the Comptroller (OC) and unit staff
to determine the causes of reconciling items.

We reviewed a study of the Smithsonian’s banking activity and cash management
practices prepared by Mitchell and Titus, LLP. We also compared the recommendations
made in the study to the Comptroller’s plans for implementing these recommendations
and evaluated whether the Comptroller’s plans would address the issues we identified.
We also reviewed a report by PricewaterhouseCoopers on internal controls of financial
processes administered by OC.

We conducted our audit between February 2005 and September 2005 in accordance with
Government Auditing Standards, as prescribed by the Comptroller General of the United
States and included tests of internal controls as were considered necessary.




                                            12
APPENDIX B. MANAGEMENT RESPONSE




                           13
APPENDIX B. MANAGEMENT RESPONSE




                           14
APPENDIX B. MANAGEMENT RESPONSE




                           15
